                                      AAAAAAAAAAAAAAAAA




              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections




Inspection Report

Yucca Mountain Project
Purchase Card Programs




INS-O-09-04                                 August 2009
                         Department of Energy
                            Washington, DC 20585

                               August 20, 2009



MEMORANDUM FOR DIRECTOR, OFFICE OF CILIVIAN RADIOACTIVE WASTE
               MANAGEMENT


FROM:                    Herbert Richardson
                         Principal Deputy Inspector General

SUBJECT:                 INFORMATION: Inspection Report on “Yucca Mountain
                         Purchase Card Programs”

BACKGROUND

Yucca Mountain Project (Project) is the Nation’s first proposed storage facility for spent
nuclear fuel and high-level nuclear waste. The Project is managed by the Department of
Energy’s (DOE) Office of Civilian Radioactive Waste Management (OCRWM). From
January 2007 to February 2009, Yucca Mountain Project’s cardholders procured
approximately $3.6 million in goods and service using purchase cards.

The Office of Inspector General has established a proactive initiative to review purchase
card programs thought the Department due to their widespread use and potential for
abuse. We initiated an inspection of the purchase card programs that have supported the
Project. Specifically, we reviewed a General Service Administration Program
administered by OCRWM and a Purchasing Card System administered by Bechtel SAIC,
LLC (Bechtel) which was the managing contractor from November 14, 2000 to March
31, 2009. The objectives of the review were to: 1) assess the effectiveness of the
program’s internal controls in preventing fraud, waste, or abuse; and (2) determine
whether the programs were consistent with the applicable policies and guidelines.

RESULTS OF INSPECTION

We concluded that operation of the Yucca Mountain Project’s purchase card programs
was not consistent with applicable policies and procedures and contained weaknesses that
could expose the Department to the risk of fraud, waste, or abuse. Specifically, we found
that, contrary to requirements:

              An OCRWM approving official did not approve or review purchase card
               transactions prior to purchases being made and did not always review the
               cardholders’ Statements of Account and supporting documentation in a
               timely manner;
              An OCRWM approving official had not completed the required approving
               official’s certification training but had been approving transactions for a
               cardholder since 2006; and,

              Two OCRWM purchase cardholders had shared their account numbers
               and allowed others to make purchases using those numbers.

Additionally, we observed that:

              OCRWM used purchase cards to pay for recurring services for its Las
               Vegas, Nevada office location; while this is not a violation of the purchase
               card use, best business practices according to DOE procurement would be
               to include these cost under a contract, especially when the annual
               aggregated cost exceeds the single purchase card limit.

              A Bechtel cardholder split a purchase transaction to stay within the
               purchase card’s single purchasing transaction limit.

MANAGEMENT REACTION

In responding to a draft of this report, management concurred with our recommendations.
Management’s comments are included in the report at Appendix C.


Attachment

cc:    Director, Office of Internal Review (CF-1.2)
       Audit Liaison, Office Civilian Radioactive Waste Management




                                         2
YUCCA MOUNTAIN PROJECT
PURCHASE CARD PROGRAMS

TABLE OF
CONTENTS

             OVERVIEW

             Introduction and Objective      1

             Observations and Conclusions    1


             DETAILS OF FINDINGS

             Approving Official’s Review     3

             Training                        4

             Sharing of Account Numbers      5

             Observations                    5


             RECOMMENDATIONS                 6


             MANAGEMENT COMMENTS             6


             INSPECTOR COMMENTS              6


             APPENDICES

             A. Scope and Methodology        7

             B. Prior OIG Reports            8

             C. Management Comments         10
INTRODUCTION       The Yucca Mountain Project is the Nation’s first proposed
AND OBJECTIVE      storage facility for spent nuclear fuel and high-level nuclear waste.
                   Located 90 miles west of Las Vegas, Nevada, the Project is
                   managed by the Department of Energy’s (DOE) Office of Civilian
                   Radioactive Waste Management (OCRWM). OCRWM and its
                   contractors use various procurement methods to acquire goods and
                   services in support of the Project’s mission, including purchase
                   cards.

                   The Office of Inspector General (OIG) has established a proactive
                   initiative to review purchase card programs throughout the
                   Department due to their widespread use and the potential for abuse
                   (see Appendix B for a list of related reports). We initiated a review
                   of the purchase card programs that have supported the Yucca
                   Mountain Project (Project). Specifically, we examined a General
                   Service Administration purchase card program administered by
                   OCRWM and the purchasing card system administered by Bechtel
                   SAIC Company, LLC (Bechtel), which was the managing
                   contractor from November 14, 2000, to March 31, 2009. The
                   objectives of the review were to: (1) assess the effectiveness of the
                   program’s internal controls in preventing fraud, waste, or abuse;
                   and (2) determine whether the programs were consistent with the
                   applicable policies and guidelines. Our inspection methodology
                   included reviewing purchase card transactions of both programs
                   from January 2007 to February 2009 with transactions valued
                   around $3.6 million.

OBSERVATIONS AND   We concluded that operation of the Yucca Mountain Project’s
CONCLUSIONS        purchase card programs was not consistent with applicable policies
                   and procedures and contained weaknesses that could expose the
                   Department to the risk of fraud, waste, or abuse. Specifically, we
                   found that, contrary to requirements:

                         An OCRWM approving official did not approve or review
                          purchase card transactions prior to purchases being made
                          and did not always review the cardholders’ Statements of
                          Account and supporting documentation in a timely manner;

                         An OCRWM approving official had not completed the
                          required approving official’s certification training but had
                          been approving transactions for a cardholder since 2006;
                          and,




Page 1                                                  Yucca Mountain Project
                                                        Purchase Card Programs
               Two OCRWM purchase cardholders had shared their
                account numbers and allowed others to make purchases
                using those numbers.

         Additionally, we observed that:

               OCRWM used purchase cards to pay for recurring services
                for its Las Vegas, Nevada office location; while this is not a
                violation of the purchase card use, best business practices
                according to DOE procurement would be to include these
                cost under a contract, especially when the annual
                aggregated cost exceeds the single purchase card limit.

               A Bechtel cardholder split a purchase transaction to stay
                within the purchase card’s single purchasing transaction
                limit.




Page 2                                 Observations and Conclusions
Details of Findings

APPROVING                        We found that an OCRWM approving official did not
OFFICIAL’S REVIEW                approve or review purchases prior to purchases being
                                 made and did not always timely review the cardholders’
                                 Statements of Account and supporting documentation.

Transaction                      “DOE Policy and Operating Procedures for the Use of the GSA
Pre-approval                     Smartpay2 Purchase Card” requires that cardholders obtain
                                 approval from their approving official prior to purchase
                                 transactions being made, unless the transaction is a purchase
                                 covered by a “blanket letter of approval.” A blanket letter of
                                 approval allows a cardholder to use the purchase card to purchase
                                 specific items up to a designated dollar amount without seeking
                                 prior approval from his or her approving official. Further,
                                 memorandums issued to appoint each approving official requires
                                 that any blanket letters of approval must be issued in writing by the
                                 approving official.

                                 We interviewed seven of nine purchase cardholders1 for
                                 OCRWM. Four of those cardholders informed us that they did not
                                 routinely obtain pre-approval prior to making purchase card
                                 purchases because they believed that they had blanket approval to
                                 make purchases. For example, two cardholders believed that their
                                 “Delegation of Authority Letter,” a letter issued by the Head of the
                                 Contracting Agency giving the cardholder authority to make
                                 purchases, represented a blanket letter of approval. However, our
                                 review determined that it did not meet the requirement for a
                                 blanket letter of approval. Another cardholder stated that the
                                 blanket letter of approval was “talked about” but was never put in
                                 writing. We interviewed the designated approving official who
                                 informed us that he did not pre-approve his cardholders’ purchases
                                 because their purchases were covered in a blanket letter of
                                 approval. The approving official was unable to provide any
                                 blanket letters of approval.

Review of                        “DOE Policy and Operating Procedures for the Use of the GSA
Statements of                     Smartpay2 Purchase Card” requires that approving officials
Account                          review and approve cardholders’ Statements of Account in a
                                 timely manner. This review is designed to ensure that the
                                 statements have supporting documentation and are complete,


1
 There were a total of nine cardholders. Two of the OCRWM purchase cardholders had retired and were not
available for interview; however, their purchase card statements were included in our review.




Page 3                                                                               Details of Findings
           accurate, and reflect only authorized purchases. The policy further
           requires the approving official to sign and date the reconcile
           statements and forward to the Finance Office by the 15th day of
           each month.

           We reviewed all cardholders’ Statements of Account and
           supporting documentation for the period of June 2008 through
           January 2009. Approximately fifty-six percent of the statements of
           account totaling $76,218.35 in goods and services had not been
           reviewed by the designated approving official by the required date.
           In one instance, we found that a cardholder’s Statement of Account
           and supporting documentation were not reviewed by the
           designated approving official until seven months after the billing
           cycle had ended. In several other instances, we found that an
           approving official had not reviewed statements until three to four
           months after the billing cycles had ended or not at all. One
           approving official informed us that due to a busy schedule, review
           of Statements of Account and supporting documentation did not
           usually take place by the required date. The approving official
           explained that when the statements were not reviewed by the
           required date the Organizational Program Coordinator sent the
           statements forward for payment to avoid late fees.

           OCRWM’s failure to adhere to both pre-purchase and post-
           purchase requirements undermines internal controls intended to
           assure that Department funds are not wasted or misused. Previous
           OIG reviews have noted that the approving official review of
           purchases is the most essential management tool in the purchase
           card control system. Although our review did not disclose any
           improper purchases, we believe that the lack of official review and
           approval exposes the Department to risk of potential misuse or
           abuse of the purchase cards.

TRAINING   We found that one of three OCRWM approving officials had not
           completed the required approving official’s certification training,
           but had been approving transactions for a cardholder since 2006.
           Proper training for an approving official is an essential requirement
           in ensuring the officials have the skills to carry out their duties.

           “DOE Policy and Procedures for the Use of the GSA Smartpay2
           Purchase Card” requires that approving officials receive
           certification training prior to appointment as an approving official,
           followed by biennial refresher training. During the course of our
           review, we learned that an approving official had not taken the




Page 4                                                    Details of Findings
____________________________________________________________
                  required initial certification training. An OCRWM official
                  confirmed that there was no record that the approving official
                  completed the training. Based on our findings, OCRWM informed
                  us that as of May 7, 2009, the approving official’s authorities had
                  been suspended.

SHARING OF        We found that two OCRWM purchase cardholders had
ACCOUNT NUMBERS   shared their account numbers and allowed others to make
                  purchases using those numbers. “DOE Policy and Operating
                  Procedures for the Use of the GSA Smartpay2 Purchase Card”
                  strictly prohibits cardholders from sharing their account number or
                  purchase card with anyone.

                  Two cardholders we interviewed informed us that they had
                  provided their purchase card account numbers to others. In one
                  instance, the cardholder stated that she had allowed a coworker to
                  use her purchase card account numbers to make purchases because
                  it was “more convenient” for the other employee to make the
                  purchases. In the other instance, the cardholder acknowledged that
                  she had exchanged her account information with another
                  cardholder based on the job responsibilities and budget
                  availability.

OBSERVATIONS      We observed that OCRWM has used purchase cards to
                  pay for monthly utility services for its Las Vegas, Nevada office
                  location; however, DOE purchase card policy and procedures
Recurring         suggests that services that are purchased on a recurring basis
Purchases         should be considered for consolidation under a contract. A senior
                  DOE Headquarters procurement official further stated that
                  recurring services with an aggregated annual cost exceeding the
                  single purchase limit for purchase cards, typically $3,000, should
                  not be purchased using a Government credit card. We indentified
                  monthly purchase card transactions for electricity services that
                  averaged approximately $360 per month ($4,370 per annum).

Split Purchases   We observed that a Bechtel cardholder split a purchase transaction
                  to stay within the purchase card’s single purchase transaction limit.
                  Bechtel’s Purchasing System Policy prohibited cardholders from
                  splitting purchases to circumvent transaction limits. Our review of
                  Bechtel transaction records identified that a cardholder with a
                  $5,000 single transaction limit made two purchases totaling $8,400
                  to the same vendor within a two-day period. The cardholder
                  acknowledged that she requested the vendor to separate the
                  purchases into two transactions of $2,800 and $5,600 in order for
                  the transaction to process.



Page 5                                                                 Observations
RECOMMENDATIONS   While the findings of this review reflect a period in which Bechtel
                  SAIC Company was the managing contractor, we believe it would
                  be beneficial to the current contractor if the Office of Civilian
                  Radioactive Waste initiate the following recommendations:

                  1. Ensure that approving officials properly implement blanket
                     letters of approval and ensure that letters and authority meet all
                     policy requirements.

                  2. Ensure that all purchase transactions are reviewed and
                     approved by the designated approving official prior to
                     payment.

                  3. Ensure that the approving official completes the initial
                     certification and in the future, ensure that approving officials
                     are trained in a timely manner.

                  4. Ensure that the prohibition on sharing account numbers of
                     purchase cards is enforced within the Project’s program.

                  5. Consider consolidating recurring utility costs under a contract
                     and using an alternate form of payment for the monthly
                     services.

MANAGEMENT        In comments on a draft of this report, management agreed with the
COMMENTS          report and its recommendations. We have included management’s
                  comments in Appendix C

INSPECTOR         We consider management’s comments to be responsive
COMMENTS          to our report.




Page 6                                                       Management and
                                                             Inspector Comments
Appendix A

SCOPE AND     The fieldwork for this inspection was conducted primarily
METHODOLOGY   between March and May 2009. As a part of this inspection, we
              visited the Yucca Mountain Project offices located in Las Vegas,
              Nevada and Washington, DC. We interviewed both Federal and
              Contractor procurement officials associated with the purchase card
              programs. We examined documents and records at all locations.
              Our document review and analysis included:

                    Select purchase card transactions records from January 2007
                     to February 2009 for OCRWM and Bechtel;

                    All Statements of Account and supporting documentation
                     for OCRWM cardholders from June 2008 through January
                     2009;

                    Prior Office of Inspector General reports;

                    Relevant Federal policies and procedures; and,

                    Relevant Bechtel policies and procedures.


              Pursuant to the “Government Performance and Results Act of
              1993,” we examined performance measurement processes as they
              related to purchase cards.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 7                                                 Scope and Methodology
Appendix B                                                   (continued)

PRIOR OIG    The following are previously issued OIG reports that are
REPORTS      related to purchase cards.

                   “Questionable Purchases at the Hanford Site” (INS-L-09-
                    02, January 2009). This report found that the prime
                    contractors at the Hanford Site made Government funded
                    purchases that may have conflicted with Federal
                    regulations and policies.

                   “Sandia National Laboratory-California Purchase Card
                    Program” (DOE/IG-0754, January 2007). This report
                    found that Sandia’s internal controls did not ensure that
                    purchases made using purchase cards were in accordance
                    with applicable policies and procedures, transactions lacked
                    the required description of the items procured, and
                    restricted items were purchased without the required
                    authorization. The report also found that the percentage of
                    Sandia employees issued purchase cards was not consistent
                    with purchase card guidance on limiting the number of
                    purchase card users.

                   “Selected Purchase Card Transactions at the Nevada Site
                    Office” (INS-O-06-01, November 2005). This report found
                    that purchase card transactions were not always reviewed
                    and approved by designated approving officials; purchase
                    cardholders and designated approving officials were not
                    completing refresher training within required timeframes;
                    there were inconsistencies with how the purchase card
                    program was administered; and monthly bank statements
                    were not reconciled with purchase card financial records.

                   “The Department’s Federal Purchase Card Program at
                    Headquarters” (DOE/IG-0675, February 2005). This report
                    found that purchase card programs were not always
                    administered effectively and that implementation and
                    executions of necessary and appropriate control procedures
                    were sometimes not inadequate.

                    “Los Alamos National Laboratory’s Purchase card
                    Program Corrective Actions” (DOE/IG-0644, April 2004).
                    This report found that the Laboratory could enhance
                    guidance to purchase cardholders by clarifying the rationale
                    for items that should not be acquired by purchase card and
                    the processes for seeking exceptions to those restrictions;
                    could automate its data analysis techniques to identify
                    purchases that did not comply with internal guidance;


Page 8                                                      Prior OIG Reports
Appendix B                                                 (continued)

                 and could enhance periodic reviews of cardholder activities
                 by improving follow-up actions to correct noted problems
                 and imposing sanctions for departures from established
                 procedures

                “Sandia National Laboratories Purchase Card Program”
                 (WR-B-02-03, August 2002). This report found that Sandia
                 purchase cardholders purchased restricted items, split
                 purchases to avoid transaction limits, and allowed
                 unauthorized users to make purchases.

                “U.S. Department of Energy’s Purchase Card Programs -
                 Lessons Learned” (I01OP001, February 2002). This report
                 identified lessons learned that could be used to improve the
                 operation and performance of the purchase card programs,
                 including: developing comprehensive guidelines for
                 purchase card processes; clearly delineating allowable and
                 non-allowable items; taking aggressive steps to assure
                 compliance with established policies and procedures; and
                 establishing a system that provides a full accounting of the
                 number of cardholders, cardholder status, and spending
                 limitations.




Page 9                                                   Prior OIG Reports
Appendix C




                                          August 17, 2009




MEMORANDUM FOR HERBERT RICHARDSON
               PRINCIPAL DEPUTY INSPECTOR GENERAL
               OFFICE OF INSPECTOR GENERAL

FROM:                    CHRISTOPHER A. KOUTS /s/
                         ACTING DIRECTOR
                         OFFICE OF CIVILIAN RADIOACTIVE
                           WASTE MANAGEMENT

SUBJECT:                 Comments on Inspector General Draft Inspection Report on “Yucca
                         Mountain Project Purchase Card Programs”


The purpose of this memorandum is to provide the attached Office of Civilian Radioactive Waste
Management’s responses to the identified recommendations in the subject draft report.

We appreciate the opportunity to comment on the draft report. If you have any questions, please
contact Reggie James of my staff at 202-586-1487.

Attachment

cc:
L. Peterson, IG-40
M. Lewis, CF-1.2




Page 10                                                             Management Comments
Appendix C                                                                      (continued)


                 Response to Recommendations in Draft Inspection Report
               “Yucca Mountain Project Purchase Card Programs” (S09IS010)


RECOMMENDATION 1

Ensure that approving officials properly implement blanket letters of approval and ensure that
letters and authority meet all policy requirements.

MANAGEMENT DECISION

Concur.

      A Blanket Purchase Authority Letter signed by the Approving Official (AO) will allow the
       cardholder to make purchases without getting prior approval from the AO as long as the
       purchase does not exceed the cardholder’s single purchase limit.

      Each cardholder has been issued a Blanket Purchase Authority Letter.

Actions completed.


RECOMMENDATION 2

Ensure that all purchase transactions are reviewed and approved by the designated approving
official prior to payment.

Concur.

      The Approving Official (AO) will approve the cardholder’s monthly purchases by signing
       off on the monthly bank statement. Typically, the AO should sign off within a few days of
       receipt from the cardholder to ensure the payment is approved in VIAS by the 15th of each
       month. There could be instances were the payment is approved in VIAS by the
       Organizational Program Coordinator, but the bank statement shows the AO signed off after
       the 15th of the month.

      The AO’s signature and date on the cover page of the cardholder’s monthly Statement of
       Account implies a number of things, including but not limited to (1) all purchases were
       authorized, (2) the cardholder conducted market research, (3) the cardholder did not make
       repetitive purchases for the same item from one vendor, (4) requirements were not split,
       and (5) documentation for the purchase transaction is complete. If the AO is approving the
       Account Statements(s) well after the fact, there could be concerns in any one of the areas
       listed above.




Page 11                                                                Management Comments
Appendix C                                                                            continued



      All program participants completed the OCRWM PCard Program Overview training
       session, which covered their roles and responsibilities, the monthly reconciliation process,
       purchase transaction documentation requirements, property tagging requirements, the
       names of the two designated AOs, etc.

      During the OCRWM PCard Program Overview training sessions, we discussed the
       estimated number of days to review and approve monthly purchases, and it was stated that
       all payments must be approved in VIAS by the 15th day of the month.

Action completed.


RECOMMENDATION 3

Ensure that the approving official completes the initial certification and in the future, ensure that
the approving officials are trained in a timely manner.

MANAGEMENT DECISION

Concur.

      Each cardholder, the Approving Official (AO), and the Organizational Program
       Coordinator completed the required DOE PCard Program training.

      All program participants completed the OCRWM PCard Program Overview training
       session, which covered their roles and responsibilities, the monthly reconciliation process,
       purchase transaction documentation requirements, property tagging requirements, the
       names of the two designated AOs, etc.

      Before a person is designated an AO, the person must complete the required OCRWM
       PCard Program Overview training.

Actions completed.


RECOMMENDATION 4

Ensure that the prohibition on sharing account numbers of purchase cards is enforced within the
Project program.




Page 12                                                                   Management Comments
Appendix C                                                                       (continued)


MANAGEMENT DECISION

      On July 13, 2009, the Acting Director of Procurement issued the following email to each of
       the cardholders, the Approving Officials, and the Organizational Program Coordinator:

               As a DOE SmartPay2 Purchase Card Program cardholder, you are
               authorized to make purchases (within your delegated purchase limits) on
               behalf of the Federal government. In accordance with the DOE Policy and
               Operating Procedures for the Use of the Government SmartPay2 Purchase
               Card guidance, paragraph 2 - Definitions, Item (e)(3) states that the
               cardholder is the “sole user of the card.” This authority cannot be
               transferred to another person/DOE employee without obtaining an official
               delegation from the designated Approving Official and/or the DOE
               OCRWM Head of the Contracting Activity. If the cardholder is not
               following all of the DOE SmartPay2 Purchase Card Program procedures,
               per the OCRWM “SmartPay2 Purchase Card Program” supplemental
               procedure, paragraph III.8, the cardholder may be issued an unauthorized
               purchase notification and have their cardholder privileges changed,
               suspended, or terminated.

Action completed.


RECOMMENDATION 5

Consider consolidating recurring utility costs under a contract and using an alternate form of
payment for the monthly services.

MANAGEMENT DECISION

Concur.

      DOE policy guidance (Paragraph 9 – PURCHASES, second paragraph) states “purchases
       of services may be made with the purchase card; however, if the nature of the service is
       subject to the Service Contract Act, refer the matter to the CO/AO. Such purchases should
       be fixed price or fixed hourly rate with a maximum ceiling. If the services are purchased
       on a recurring basis, consideration should be given to consolidation under a contract.
       The card may not be used unless ordering and delivery of the services can both occur
       within the billing period . . . .”

      OCRWM is determining if a purchase order/contract can be done at this point and time; if
       a purchase order can be issued OCRWM will replace the current agreements with a
       contractual vehicle.




Page 13                                                                 Management Comments
Appendix C                                              continued


Estimated date of closure: December 1, 2009




Page 14                               DRAFT   Management Comments
                                                                Report No. INS-O-09-04



                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith at (202) 586-7828.
                                                                     Report No. INS-O-09-04




The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
